Certificate of Service
On September 14, 2021,1 filed the attached for the
Supreme Court of the United States, and for the
Respondent, the United States of America, and within the
day will cause an additional copy to be mailed to the
President's Counsel at the following location, or
otherwise for the Respondent thereto:

Hon. Merrick B. Garland,
The Attorney General of the United States
via Brian H. Fletcher,
The Acting Solicitor General of the United States
c/o U.S. Department of Justice
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001

Very Respectfully,
/S/
Damian R. Nastri, Pro Se

